Office of the Inspector General
United States Department of Justice




    ANALYSIS OF THE RESPONSE BY THE
     FEDERAL BUREAU OF PRISONS TO
     RECOMMENDATIONS IN THE OIG’S
      DECEMBER 2003 REPORT ON
THE ABUSE OF SEPTEMBER 11 DETAINEES
AT THE METROPOLITAN DETENTION CENTER
        IN BROOKLYN, NEW YORK




                                      March 2004
     ANALYSIS OF THE RESPONSE BY THE FEDERAL BUREAU OF PRISONS
     TO RECOMMENDATIONS IN THE OIG’S DECEMBER 2003 REPORT ON
            THE ABUSE OF SEPTEMBER 11 DETAINEES AT THE
       METROPOLITAN DETENTION CENTER IN BROOKLYN, NEW YORK

I.    INTRODUCTION

      This analysis by the Office of the Inspector General (OIG) evaluates the
Federal Bureau of Prisons’ (BOP) response to the recommendations contained
in the OIG’s report entitled “Supplemental Report on September 11 Detainees’
Allegations of Abuse at the Metropolitan Detention Center in Brooklyn, New
York.” (MDC Report). The OIG supplemental report, issued on December 18,
2003, examined allegations that some correctional officers in the Metropolitan
Detention Center (MDC) in Brooklyn, New York, physically and verbally abused
aliens who were detained on immigration charges and held in connection with
the investigation of the terrorist attacks of September 11, 2001. In our MDC
Report, we described the evidence of that abuse, concluded that the evidence
substantiated allegations of abuse, and recommended that the BOP discipline
certain MDC correctional officers.

      In our report, we also described systemic problems in how the MDC
handled the September 11 detainees. We made a series of recommendations to
the BOP to address those systemic problems, which we concluded would
improve the BOP’s ability to prepare for and respond to future emergencies
involving detainees, as well as improve its routine handling of inmates.

       On February 25, 2004, the BOP submitted its response to these systemic
recommendations (see Appendix). The OIG has analyzed the BOP’s response to
each of the recommendations and we have concluded that, in general, the BOP
has taken reasonable and responsible steps to implement the
recommendations. Many of the BOP’s actions appropriately address the
concerns underlying the recommendations. However, as we describe below, a
few of the BOP’s responses do not sufficiently address the recommendations
and the core concerns underlying them.

      In the following sections, the OIG analyzes the BOP’s response to each of
the report’s recommendations. For each recommendation, we reproduce below:

      1) the OIG’s original recommendation;
      2) the BOP’s response; and
      3) the OIG’s analysis of the response.
      Consistent with our normal practice, when specific action has been taken
on a recommendation to fully address the issues raised by the
recommendation, we consider the recommendation to be closed.

      Moreover, we recognize that the effectiveness of the BOP’s response to
these recommendations depends on how the new policies and practices are
actually implemented, particularly if an emergency such as a terrorist attack
occurs again. But, as we discuss below, we believe that the BOP’s written
response is a positive step towards addressing the OIG’s recommendations.

II.   RECOMMENATIONS

Recommendation 1
Status: Open

OIG Recommendation

      During our investigation, we encountered a significant variance of
opinion among MDC staff members regarding what restraint and escorting
techniques were appropriate for compliant and noncompliant inmates. We
recommend that the BOP provide clear, specific guidance for BOP staff
members on what restraint and escorting techniques are and are not
appropriate. This guidance could take the form of written policy and
demonstrations or examples given during training. The guidance should
address techniques at issue in this investigation, including placing inmates’
faces against the wall, stepping on inmates’ leg restraint chains, and using
pain compliance methods on inmates’ hands and arms.

BOP Response

       The BOP agrees with this recommendation. The BOP will continue its
efforts to train Bureau staff regarding the proper use of restraints and escort
techniques. As has been the practice for several years, Bureau staff receive
their initial training regarding the application of restraints and escort
techniques during an intensive 120-hour Introductory Correctional Training
course at the Staff Training Academy in Glynco, Georgia. Staff are also trained
in confrontation avoidance, use of force team techniques, and use of chemical
agents. BOP staff are and have always been trained to apply restraints only for
appropriate purposes and in appropriate ways.

      The BOP’s Program Statement (PS) 3420.09, Standards of Employee
Conduct, dated February 5, 1999, states: “An employee may not use brutality,
physical violence, or intimidation towards inmates, or use any force beyond
that which is reasonably necessary to subdue an inmate.” Bureau staff are
______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice              2
issued this program statement upon entry to their position and sign a
document indicating their receipt. Additionally, any time a change is made to
this program statement, Bureau staff are reissued the program statement and
sign a similar statement as to their receipt.

       In April 2004, I [BOP Director Harley Lappin] will personally provide a
video to all CEOs wherein issues of staff conduct, professionalism, and a zero
tolerance for abuse will be discussed. This video will be viewed by all BOP
staff.

      The Bureau’s Use of Force Training has always been a mandatory core
topic provided during Annual Refresher Training for all BOP staff. This year,
we are adding a mandatory core topic for Escorting Restrained/Non-Restrained
Inmates for presentation during Annual Refresher Training for all BOP staff.
Additionally, we will enhance this training to specifically address what restraint
and escort techniques are and are not appropriate.

      Finally, a team of NER Office staff will conduct training at MDC Brooklyn
February 27, 2004, through April 9, 2004, regarding the appropriate
application of restraints and proper escort procedures. (Attachment 1)

OIG Analysis

     We believe the BOP’s response addresses most of the concerns
underlying our recommendation.

      During our investigation, we encountered a wide variety of opinions
among MDC staff members regarding what restraint and escorting techniques
were appropriate for compliant and noncompliant inmates. For example, when
asked whether bending an inmate’s hand forward toward the arm was
appropriate, some officers said that the technique was appropriate only with
non-compliant inmates, others told us that it was never appropriate, and a few
stated that it was a standard procedure for compliant inmates.

      We also questioned the senior BOP official who has been responsible
since 2000 for training new BOP officers on restraint and escort techniques
about certain techniques that we had observed officers using in MDC
videotapes. When we showed the official examples of officers bending
compliant detainees’ wrists during escorts, he stated that the technique was
not appropriate under the circumstances presented in the videotapes and was
not part of the new officer training program.

      We agree with the BOP’s proposal to add as a mandatory core topic
“Escorting Restrained/Non-Restrained Inmates” for presentation during the
______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice               3
annual refresher training for all BOP staff, including enhanced training on
specific escort techniques that are and are not appropriate. From the BOP’s
description, however, it is unclear whether the training presentation will cover
the issues addressed in the OIG Report, including twisting an inmate’s wrist or
fingers, stepping on an inmate’s ankle chains, placing an inmate’s head against
the wall, and pulling up on an inmate’s cuffed arms. As referred to in the
report, MDC officers had varying and conflicting opinions concerning when, if
at all, these techniques were appropriate. To close this recommendation,
please provide by June 1, 2004, a copy of the training program that addresses
the appropriateness of the specific escort techniques that were identified in the
OIG’s MDC Report.

Recommendation 2
Status: Closed

OIG Recommendation

       We found that the MDC regularly audiotaped detainees’ meetings with
their attorneys, in violation of 28 C.F.R. § 543.13(e) and BOP policy. We
recommend that BOP management take immediate steps to educate its staff on
the law prohibiting, except in specific limited circumstances, the audio
monitoring of communications between inmates and their attorneys.

BOP Response

        The BOP agrees with this recommendation. BOP PS 5267.07, Visiting
Regulations, which has been in existence for several years and updated on
April 14, 2003, states: “Staff may not subject visits between an attorney and
an inmate to auditory supervision. To the extent practicable, attorney visits,
for both pretrial and sentenced inmates, are to take place in a private
conference room...Occasionally, a situation may arise when a private area or
conference room is not available, and the attorney does not wish to meet in a
regular visiting room. When this occurs, the attorney may reschedule the
visit.”

      BOP PS 1315.07, Legal Activities, Inmate, dated November 5, 1999, also
states: “Staff may not subject visits between an attorney and an inmate to
auditory supervision.”

      A memorandum was issued by our General Counsel on January 28,
2004, to all CEOs outlining the Federal regulations and BOP policy concerning
the audio monitoring of attorney visits. (Attachment 2)


______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice              4
OIG Analysis

       The BOP General Counsel’s January 28, 2004, memorandum states that
BOP Chief Executive Officers must ensure that their staff is aware that
subjecting inmate attorney-client visits to auditory supervision or recording is
prohibited by federal regulations and BOP policy. In addition, the
memorandum states that, to the extent practicable, attorney-client visits for
pretrial and sentenced inmates are to occur in private conference rooms. We
believe this addresses our recommendation and therefore consider this
recommendation closed.

Recommendation 3
Status: Closed

OIG Recommendation

      While the staff members denied verbally abusing the detainees, we found
evidence of staff members making threats to detainees and engaging in conduct
that was demeaning to the detainees. We recommend that the BOP and MDC
management counsel MDC staff members concerning language that is abusive
and inappropriate and remind them of the BOP policy concerning verbal abuse.

BOP Response

       The BOP agrees with this recommendation. As stated in the BOP’s
response to recommendation #1, employees may not use brutality, physical
violence, or intimidation towards inmates, or use any force beyond that which
is reasonably necessary to subdue an inmate. BOP PS 3420.09, Standards of
Employee Conduct, dated February 5, 1999, states: “An employee may not use
profane, obscene, or otherwise abusive language when communicating with
inmates, fellow employees or others. Employees shall conduct themselves in a
manner which will not be demeaning to inmates, fellow employees, or others.”
As previously stated, Bureau staff are issued this program statement upon
entry to their positions and sign a document indicating their receipt.
Additionally, any time that a change is made to this program statement,
Bureau staff are reissued the program statement and sign a similar statement
as to their receipt.

      As previously stated, NER Office staff will conduct training at MDC
Brooklyn February 27, 2004, through April 9, 2004, regarding the BOP’s Code
of Conduct and policy concerning verbal abuse toward inmates.




______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice              5
OIG Analysis

      We have reviewed the BOP’s training program and believe it is responsive
to our recommendation. We therefore consider this recommendation closed.

Recommendation 4
Status: Open

OIG Recommendation

       Because specific officers were not pre-assigned to escort detainees to and
from the ADMAX SHU, the lieutenants in charge of escorts used available staff
from throughout the institution for the escort teams. Several lieutenants told
us that the lack of designated teams contributed to the potential for abuse on
escorts. Likewise, while specific staff members were assigned to the ADMAX
SHU, we observed on videotapes that staff members from all over the
institution, including staff members who had little or no experience handling
inmates, were on the ADMAX SHU and had physical contact with the
detainees. We recommend that institutions select and train experienced
officers to handle high security and sensitive inmates, enforce the policy that a
comprehensive log of duty officers and a log for visitors be maintained on the
unit, and restrict access to the unit to the assigned staff members, absent
exigent circumstances. MDC staff members advised us that officer logs, visitor
logs, and restrictions on access to the unit were in place for the ADMAX SHU,
but the videotapes showed that the procedures were not followed.

BOP Response

        The BOP partially agrees with this recommendation. All BOP
institutional staff members are trained in the professional management of
inmates. The BOP does not believe it is appropriate to maintain a special cadre
of officers to handle high security and sensitive inmates. In fact, we believe
such specialization can lead to divisions between staff, create communication
barriers between staff and inmates, and even promote the types of problematic
behavior identified by the OIG. We believe the BOP philosophy that all staff are
trained and qualified to work any correctional post when necessary is
appropriate and sound correctional practice. As mentioned in the OIG’s report,
MDC staff were working under difficult conditions. Only a small percentage of
MDC staff did not act professionally or follow BOP policy in their treatment of
the detainees. However, this is not a reflection on BOP policy, procedure, or
practice and does not reflect on the hundreds of MDC Brooklyn staff who
maintained their professional demeanor and conduct with the detainees during
this difficult time.

______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice               6
       BOP PS 5270.07, Inmate Discipline and Special Housing Units, states:
“All persons visiting the unit will sign a separate log, giving time and date of
visit.” BOP program review guidelines for Correctional Services also require
examiners to review special housing unit logs to ensure compliance with BOP
policy. I have asked our program review staff to notify the appropriate regional
director of any deficiencies noted regarding special housing unit operations.

       We believe restricting access to select staff in the special housing unit
creates barriers between staff and inmates. Staff visibility and interaction with
inmates who are separated from the general population for various reasons are
tools that we believe minimize disruptive behavior on the part of inmates
housed in the unit. We strongly encourage all staff with specific
responsibilities for inmates, such as education, medical, psychology, religious
services, and other appropriate staff who may not be assigned to the unit, to
conduct periodic visits in order to promptly address inmate concerns. We are
convinced this interaction promotes good inmate/staff communication, as well
as increased security and safety within the unit. We further believe
maintaining an “open” unit benefits both staff and inmates.

OIG Analysis

       The BOP’s response partially addresses the concerns underlying our
recommendation. The BOP states that its program review staff will notify the
Northeast Regional Director of some MDC staff members’ failure to follow BOP
policy by signing the special housing unit log when they entered the ADMAX
SHU. That is responsive to a portion of the recommendation. To close this
portion of the recommendation, please provide us with a copy of this
notification by June 1, 2004. Also, please inform us of what steps the
Northeast Regional Director has taken to ensure that this policy is strictly
followed in the future.

       The BOP also states that it believes it would be inappropriate to select
and designate a team of experienced officers to handle high security and
sensitive inmates. Moreover, the BOP states that restricting access to select
staff in the special housing unit creates barriers between staff and inmates that
could compromise security and safety within the unit.

       During our investigation, MDC lieutenants and officers told us that the
officers assigned to the ADMAX SHU were selected because of their experience
and professionalism. They also told us that the BOP chose to limit access to
the detainees to these specific officers so that professionalism would be
maintained at all times during a highly emotional period. In addition, several
lieutenants told us that if the BOP had assigned specific officers to escort
detainees to and from the ADMAX SHU – much like it assigned specific officers
______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice               7
to the ADMAX SHU – then a significant amount of the physical and verbal
abuse that occurred when the detainees arrived at the MDC would have been
prevented.

      The BOP response states that only a small percentage of MDC staff acted
unprofessionally, while hundreds of MDC staff maintained their
professionalism with the detainees. In fact, the small percentage of MDC staff
who acted unprofessionally constituted a significant percentage of those who
had regular contact with the detainees. In this instance, officers’ training in
the professional management of inmates did not prevent abuse.

      We recognize that pre-selecting and training a cadre of officers to escort
high security and sensitive inmates is not the only way to prevent abuse.
However, according to the MDC lieutenants we interviewed, this approach was
preferable for escorting special interest detainees in and out of the MDC. We
believe the BOP should carefully consider this option in special circumstances,
such as occurred after September 11. To close this recommendation, we
request the BOP carefully consider this and other potential solutions to the
concerns underlying the recommendation, and provide us its response by
June 1, 2004.

Recommendation 5
Status: Open

OIG Recommendation

       By requiring that all detainees’ movements be videotaped and installing
cameras in each ADMAX SHU cell, BOP and MDC officials took steps to help
deter abuse of September 11 detainees and to refute unfounded allegations of
abuse. Once the MDC began videotaping all detainee movements, incidents
and allegations of physical and verbal abuse significantly decreased. We
therefore recommend that the BOP analyze and consider implementing a policy
to videotape movements of sensitive or high-security inmates as soon as they
arrive at institutions.

BOP Response

      The BOP agrees with the intent of this recommendation; however, it is
not practical to impose as a routine requirement. The recently issued BOP PS
5272.01, Management of Select Inmates During National Security
Emergencies, affords the Assistant Director, Correctional Programs Division,
the authority to determine what circumstances warrant videotaping routine
inmate movement outside of an inmate’s cell. The Assistant Director,
Correctional Programs Division, will determine when videotaping is necessary
______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice              8
and will issue specific written guidelines and procedures to the affected
institutions. Additionally, Central Office correctional services staff will conduct
an initial on-site review of the implementation and execution of videotape
procedures at each institution. As a reminder, the requirements set forth in
this program statement will take effect and involve select inmates in the event
of a national emergency.

OIG Analysis

      We understand the practical limitations of implementing a BOP-wide
policy on videotaping inmates, and our recommendation was not suggesting
this should be a routine requirement. Instead, we recommended that the BOP
consider implementing a policy that requires videotaping upon arrival a narrow
class of inmates who would be potential targets of abuse, such as suspects in a
mass terrorist attack.

       The OIG investigation demonstrated that the lack of a policy on
videotaping detainees upon arrival at the MDC was a contributing factor to the
abuse that occurred. Several officers and most of the detainees that we
interviewed observed that the abuse declined sharply with the introduction of
videotaping. Moreover, according to memoranda that instituted the policy of
videotaping all movements of detainees at the MDC, the justification given was
to curtail false allegations of abuse.

      In the absence of an established policy for when videotaping of sensitive
or high-security inmates should occur, and by leaving it to a case-by-case
determination of the Assistant Director of the BOP’s Correctional Programs
Division, we believe that it will be less likely that videotaping will be initiated
when inmates first arrive at the institution, which was when most of the abuse
at the MDC occurred, based on our investigation.

       Under the BOP’s proposal, videotaping would occur only after the BOP’s
Assistant Director of the Correction Programs Division determined that
circumstances warranted videotaping inmate movement and issued guidelines
to the affected institution. This process may delay the initiation of videotaping
inmates who would be potential targets of abuse.

      To close this recommendation, by June 1, 2004, we request that the BOP
reconsider creating a policy that would provide specific guidance on under
what circumstances videotaping of certain inmates should occur.




______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice                 9
Recommendation 6
Status: Open

OIG Recommendation

      We found evidence indicating that many of the strip searches conducted
on the ADMAX SHU were filmed in their entirety and frequently showed the
detainees naked. The strip searches also did not afford the detainees much
privacy, leaving them exposed to female officers who were in the vicinity. In
addition, the policy for strip searching detainees on the ADMAX SHU was
applied inconsistently, many of the strip searches appeared to be unnecessary,
and a few appeared to be intended to punish the detainees. For example, many
detainees were strip searched after attorney and social visits, even though
these visits were in no-contact rooms separated by thick glass, the detainees
were restrained, and the visits were filmed.

      We believe that the BOP should develop a national policy regarding the
videotaping of strip searches. We also believe MDC management should
provide inmates with some degree of privacy when conducting these strip
searches, to the extent that security is not compromised.

       In addition, MDC staff members complained to us and to each other off-
camera of inadequate resources on the ADMAX SHU to handle the large
number of detainees. Because a strip search involves three or four officers, the
BOP should review its policies of requiring strip searches for circumstances
where it would be impossible for an inmate to have obtained contraband, such
as after no-contact attorney or social visits, unless the specific circumstances
warrant suspicion.

BOP Response

      The BOP agrees with this recommendation. The BOP policy on visual
searches (strip searches), PS 5521.05, Searches of Housing Units and Inmate
Work Areas, stipulates “Staff may conduct a visual search when there is
reasonable belief that contraband may be concealed on the person or a good
opportunity for concealment has occurred.” A new policy regarding video
surveillance procedures and techniques, including a section addressing the
videotaping of visual searches, has been drafted and is currently undergoing
review. It is anticipated it will be signed by the Director by May 1, 2004.

       In addition, as previously referenced, NER Office staff will conduct
training at MDC Brooklyn that specifically addresses inmate privacy during
visual searches.

______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice            10
       Finally, as recommended by the OIG, we reviewed our policy on strip
searches. Our policy requires visual searches of all inmates participating in
the visitation program. Due to unique circumstances surrounding inmate
visitation, we believe sound correctional practice dictates the continuation of
these searches to ensure the safety and security of staff and inmates. The
reality of non-contact visiting is that while the inmate does not have contact
with the visitor, the opportunity to obtain contraband does exist both in the
visiting area and while the inmate is being moved to and from the visiting area.

OIG Analysis

      The BOP agrees with the need for a policy on videotaping visual or strip
searches. To close this part of the recommendation, please provide the OIG the
section of the BOP’s policy addressing videotaping of visual searches.

       With respect to visual searches being conducted after non-contact visits,
the BOP stated that its policy requires visual searches of all inmates
participating in the visitation program. Based on our investigation, we found
that there was not a consistent practice in the MDC’s ADMAX SHU among the
officers concerning visual searches following visitation, and that all detainees
were not usually searched. Moreover, several officers stated that the reason
the attorney visits were conducted on the same floor as the ADMAX SHU was
to obviate the need to perform visual searches.

       Furthermore, several detainees stated to us that they elected not to have
visits with their attorneys or families because they felt humiliated being strip-
searched. These detainees told us that they viewed strip searches before and
after visits as intentional punishment to discourage them from visiting with
their attorneys or families.

       In its response, the BOP asserted that the “reality of noncontact visiting”
was that the inmate has “an opportunity to obtain contraband. . . in the
visiting area and while the inmate is being moved to and from the visiting
area.” We observed in the videotapes that the detainees in the ADMAX SHU
were always in wrist and ankle restraints, and escorted closely by at least three
officers from their cells to the non-contact visiting rooms. Moreover, the
detainees often were restrained while in the visiting rooms.

      As we indicated in our recommendation, several officers complained to
us (and to each other on videotapes) of inadequate staff on the ADMAX SHU to
handle the number of detainees. We suggest that in the ADMAX SHU context,
where the inmates are fully restrained and escorted to and from the non-
contact rooms, that the BOP consider giving the lieutenants discretion not to
conduct visual searches of fully restrained inmates after non-contact visits
______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice              11
where the circumstances do not warrant suspicion. For example, a quick
search of the non-contact visiting room before and after the visit may be
effective and take less time than the more resource-intensive strip search of an
inmate, which the videotapes showed involved three officers and a camera
operator.

       We request that the BOP reconsider its policy requiring visual searches
after all non-contact visits. In the context of the ADMAX SHU environment and
procedures requiring escorts of fully-restrained inmates, such a rigid policy
may not be required. To close this recommendation, we request the BOP
consider this policy carefully and provide us its response by June 1, 2004.

Recommendation 7
Status: Open

OIG Recommendation

      We found evidence that some MDC medical personnel failed to ask
detainees how they were injured or to examine detainees who alleged they were
injured. We recommend MDC and BOP management reinforce to health
services personnel that they should ask inmates how they were injured,
examine inmates’ alleged injuries, and record their findings in the medical
records.

BOP Response

       The BOP agrees with this recommendation. The NER Health Services
Administrator conducted training at MDC Brooklyn February 17-18, 2004.
This training addressed health services policy and procedures regarding
appropriate follow-up on all inmate injuries. (Attachment 3)

OIG Analysis

       We believe the BOP’s response partially addresses the concerns we
discussed in our report. The BOP response stated that it had provided training
to refresh MDC medical staff on health services policy and procedures and
completing an Inmate Injury Assessment and Follow-up form. In our MDC
Report, we found that medical staff frequently did not complete this form in
evaluating detainees. We also found that in the instances when the form was
completed, medical staff usually did not complete the sections regarding the
detainee’s statement as to how the injury occurred. Moreover, we found that
sometimes the medical staff did not even ask the detainees how the injury
occurred.

______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice             12
       We do not believe that refresher training alone will guarantee that
medical staff will ask inmates how their injuries occurred or will ensure that
inmates’ responses are adequately documented in their medical records. To
close this recommendation, we suggest the BOP reformat BP-362(60), “Inmate
Injury Assessment and Followup,” so that the entry box for #9 “Subjective”
requires the inmate’s statement as to how the injury occurred, instead of being
combined with the symptoms of the inmate. The title for the new box could be
changed to “Cause of Injury,” and another box could be created for “Symptoms
of Injury.” This change would focus the medical staff on the need to record the
inmate’s description of what caused the injury, which was often lacking from
BOP records in the past.




______________________________________________________________________________
Office of the Inspector General, U.S. Department of Justice            13
Appendix
